U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

March 11, 2020

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Retail Ready Career Center, Inc. v. United States
S. Ct. No. 19-970

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 30,
2020. The government’s response is now due, after one extension, on April 3, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 4, 2020, within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

NOEL J. FRANCISCO
Solicitor General

cc:

See Attached Service List

19-0970
RETAIL READY CAREER CENTER, INC.
USA

CALEB A. DAVIS
KANE RUSSELL COLEMAN LOGAN PC
901 MAIN STREET
SUITE 5200
DALLAS, TX 75202
214-777-4267
CADAVIS@KRCL.COM
JACK G.B. TERNAN
TERNAN LAW FIRM, PLLC
1400 PRESTON ROAD
SUITE 400
PLANO, TX 75093
972-665-9939
JT@TERNANLAWFIRM.COM

